        Semiannual report to the congress
                    April 2007




U.S. Department of the Interior
Office of Inspector general
National Bison Range
            Photo by
       Hagerty/FWS
                                                                                                                     NT OF TH
                                                                                                          ME                 E
                                                                                                        RT                       I




                                                                                                    A




                                                                                                                                 N
                                                                                                  EP




                                                                                                                                     TE
                                                                                            U.S. D




                                                                                                                                       RIO
                                                                                                                                        R
                                                                                            �                                           �



Message From the Inspector General




                                                                                                                                       AL
                                                                                            OF
                                                                                                  Ag
                                                                                                    en




                                                                                                                                     ER
                                                                                              FI
                                                                                                        of




                                                                                                      ts
                                                                                                   E       P   osi




                                                                                                 C
                                                                                                                  tive




                                                                                                                                 N
                                                                                                        OF             Ch
                                                                                                                          GE
                                                                                                                   ange
                                                                                                                INSP
                                                                                                                    ECTOR




        I am pleased to present the results and accomplishments of the Office of Inspector General
    (OIG) from October 1, 2006, through March 31, 2007. During this reporting period, we com-
    pleted three of the highest profile investigations conducted during my tenure. One involved
    millions of dollars in oil and gas royalties that went uncollected by the Minerals Management
    Service (MMS). The other two involved former Deputy Secretary J. Steven Griles’ and former
    Congressman Robert Ney’s interaction with convicted lobbyist Jack Abramoff.

         In March 2006, we opened an investigation after the New York Times published an article
    alleging that oil and gas companies were not paying the correct amount of royalties due to the
    American taxpayer. Congressional testimony revealed that price thresholds, which required
    oil and gas companies in the Gulf of Mexico to pay royalties to the federal government when
    oil and gas prices reached a certain level, were not included in 1998 and 1999 leases issued by
    MMS. We found that MMS field personnel initially included price threshold language in the
    leases but stopped for 2 years and instead cited a regulation that they thought contained the
    same language – but, in fact, it did not. As stated during my testimony, this was an example of
    bureaucratic bungling that could end up costing taxpayers billions of dollars.

        At the request of the Congress, we also audited the MMS process for conducting compli-
    ance reviews, which evaluate the “reasonableness” of reported oil and gas royalties. Histori-
    cally, MMS has relied on audits to verify that companies are reporting oil and gas royalties.
    Compliance reviews can provide a broader coverage of royalties, using fewer resources than
    traditional audits. They do not, however, provide the same level of detail or assurance that a
    traditional audit provides. As a result, we concluded that compliance reviews should only be
    used in conjunction with audits, in the context of a well-designed, risk-based compliance strat-
    egy. MMS agreed with the report’s three recommendations, which should result in an overall
    improvement in the compliance review process.

         In addition to our recent activities involving MMS that received considerable media atten-
    tion, we have finally completed a 3-year-long investigation into the relationship between
    J. Steven Griles, former Deputy Secretary of the Department of the Interior (DOI), and con-
    victed lobbyist Jack Abramoff. In March 2007, Griles pleaded guilty in U.S. District Court for
    the District of Columbia to one count of obstruction of proceedings before the U.S. Senate.

        Griles acknowledged that, contrary to his statement and Senate testimony, Abramoff had
    enjoyed special access to him at DOI. He admitted that, during his interview and testimony,
    he had lied about their relationship. Griles further admitted in his plea that Abramoff—both




                      Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
       directly and through an unnamed person—sought and received advice and intervention on issues
       within DOI’s jurisdiction that directly affected Abramoff and his clients. Griles is the 10th indi-
       vidual to face criminal charges in relation to the investigation into Abramoff’s lobbying activities
       and the highest-level Administration official.

            We also concluded our joint investigation with the FBI into former Congressman Robert
       Ney’s assistance to Abramoff’s lobbying team. In exchange for personal favors, including an all-
       expense-paid golf trip to Scotland, Ney aided Abramoff and his clients by inserting amendments
       in the Help America Vote Act that opposed federal bans on Indian gaming in Texas. Ney was
       sentenced to 30 months of incarceration and ordered to pay a fine of $6,000.

           The hard work and dedication of all OIG personnel who contributed to these investigations
       and audits reflect the OIG’s commitment to promoting excellence and integrity in the Depart-
       ment. We will continue to work diligently with the Secretary and the Congress to improve trans-
       parency and accountability of government to the American public.




                                                           Earl E. Devaney
                                                           Inspector General




Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                                                                                                                                    Table of Contents




Table of Contents                                                                                                                               Page
Statistical Highlights.............................................................................................................................ii
OIG Organization Chart.......................................................................................................................iv
Mission and Top Management Challenges...........................................................................................v

Significant Audits, Evaluations,
Assessments, and Investigations
Department of the Interior....................................................................................................................1
Bureau of Indian Affairs..................................................................................................................... 11
Bureau of Land Management.............................................................................................................. 19
Minerals Management Service........................................................................................................... 21
National Park Service......................................................................................................................... 23
Office of Insular Affairs...................................................................................................................... 27
U.S. Fish and Wildlife Service............................................................................................................ 31
U.S. Geological Survey....................................................................................................................... 35

Appendixes
1.	    Summary of Audit and Related Activities
       From October 1, 2006, Through March 31, 2007 . .................................................................... 37
2.	    Reports Issued During the 6-Month Period That Ended
       March 31, 2007........................................................................................................................... 38
3.	    Monetary Impact of Audit and Evaluation Activities From October 1, 2006,
       Through March 31, 2007 ........................................................................................................... 43
4.	    Audit and Evaluation Resolution Activities . ............................................................................. 44
5.	    Summary of Audit and Evaluation Reports Over 6 Months Old
       Pending Management Decisions at March 31, 2007.................................................................. 48
6.	    Summary of Performance Audit, Financial Audit, and Evaluation Reports
       More Than 6 Months Old Pending Corrective Action at March 31, 2007 ................................ 50
7.	    Reports Issued on Information Security..................................................................................... 53
Cross-references to the Inspector General Act .................................................................................. 54
General Information . ......................................................................................................................... 55



                                            Semiannual Report to the Congress - October 1, 2006 - March 31, 2007                                        
Statistical Statistical
            Highlights Highlights



            INVESTIGATIONS
            STATISTICAL HIGHLIGHTS
           October 1, 2006, Through March 31, 2007
           Investigative Activities
           Cases Closed................................................................................................................................. 309
           New Cases Opened....................................................................................................................... 205
           Hotline Complaints/Inquiries Received.......................................................................................... 66

           Criminal Investigative Activities
           Indictments/Information................................................................................................................. 12
           Convictions..................................................................................................................................... 22
           Sentencings..................................................................................................................................... 20
                  - Jail........................................................................................................................................................299 months
                  - Probation .............................................................................................................................................660 months
                  - Criminal Judgements/Restitutions........................................................................................................$1,680,371
                  - Fines.........................................................................................................................................................$922,599
                  - Special Assessments.................................................................................................................................$113,561
           Criminal Matters Referred for Prosecution..................................................................................... 29
           Criminal Matters Declined.............................................................................................................. 35

           Civil Investigative Activities
           Civil Referrals................................................................................................................................... 1
           Civil Declinations............................................................................................................................. 2

           Administrative Investigative Activities
           Removals........................................................................................................................................... 4
           Downgrades...................................................................................................................................... 1
           Last Chance Agreement.................................................................................................................... 1
           Retirements....................................................................................................................................... 1
           Suspensions....................................................................................................................................... 2
           Resignations...................................................................................................................................... 4
           Reprimands/Counseling.................................................................................................................. 18
           Reassignments/Transfers.................................................................................................................. 1
           General Policy Actions................................................................................................................... 14

                                                                                                                                                          Back To TOC

     ii    Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                                                                                                                  Statistical Highlights
                                                                                                                       Statistical Highlights



AUDITS
STATISTICAL HIGHLIGHTS
October 1, 2006, Through March 31, 2007
Audit and related Activities

Reports Issued................................................................................................................. 51

Performance Audits, Financial Audits, Evaluations, and Verifications..................................... 36
Contracts and Grant Audits........................................................................................................ 13
Single Audit Quality Control Reviews........................................................................................ 2

Audit and Evaluation Impacts
Total Monetary Impacts........................................................................$46,910,602
Questioned Costs (includes unsupported costs)........................................................... $5,064,624
Recommendations That Funds Be Put to Better Use................................................. $12,989,272
Lost or Potential Additional Revenues........................................................................................ 0
Wasted Funds*........................................................................................................... $28,856,706

Audit and Evaluation Recommendations Made..................................... 350

Audit and evaluation Recommendations Resolved............................ 205




* Wasted Funds is a new category the OIG will be using to classify funds that were wasted and cannot be recovered.




                                                                                                                            Back To TOC



                                        Semiannual Report to the Congress - October 1, 2006 - March 31, 2007                               iii
     OIG Organizational Chart




                                            OIG Organization Chart
                                                                     Inspector General                                            Associate IG
            Office of General Counsel                                                                                            External Affairs
                                                                      Deputy Inspector General                                    Associate IG
                                                                                                                            Whistleblower Protection
                                                                                   Chief Of Staff


                       AIG                                       AIG                                     AIG                          AIG
                   Investigations                               Audits                               Information                   Management
                                                                                                     Technology                    Deputy AIG

                                                                                                                                      Human
                                                            Principal           Deputy AIG                 Information               Resources
           Deputy AIG                    Principle        Deputy AIG            Headquarters               Technology
               for                        Deputy                                                                                      Division
                                                        Field Operations         Operations                  Division
          Investigative                   AIG for
            Support                    Investigations
                                                                                                                                     Financial
                                                                                                           Information              Management
                                                                                                             Security                Division
                                                    External             Central                             Division
                           Program
                           Integrity                 Audits              Region
                                                   Reston, VA         Lakewood, CO                                                   Operations
                           Division                                                                                                SupportDivision
                                                                     Albuquerque, NM           Financial
                                                                                                Audits

         Western Region            Northern Region
          Sacramento, CA             St. Paul, MN                               Program Analysis
           Portland, OR             Rapid City, SD                                     and
           Honolulu, HI              Billings, MT                               Technical Support

           Central Region              Eastern Region
           Lakewood, CO                 Atlanta, GA
                                        Herndon, VA        Western Region
          Albuquerque, NM                                      Sacramento, CA
             Tulsa, OK                 New York, NY
                                                                Honolulu, HI
                                                               St. Thomas, VI




          Special                       Quality                 Policy and               Technical                 Computer
         Initiatives                   Assurance                 Planning                Support                   Crime Unit
            Unit                         Unit                      Unit                    Unit




                                                                                                                                  Back To TOC

iv   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                                                       Mission and Top
                                                         Significant   Management
                                                                     Audits,          Challenges
                                                                             Evaluations, and Investigations



Mission and Top Management
Challenges for the Office
of Inspector General
Mission
    The mission of the OIG is to promote excellence, integrity, and accountability in the programs, operations,
and management of DOI.

Responsibilities
    The OIG is responsible for independently and objectively identifying risks and vulnerabilities that directly
impact, or could impact, DOI’s ability to accomplish its mission. We are required to keep the Secretary and the
Congress fully and currently informed about problems and deficiencies relating to the administration of DOI
programs and operations. Effective implementation of this mandate addresses the public’s demand for greater
accountability and integrity in the administration of government programs and operations, and addresses the
demand for programs that work better, cost less, and get the results Americans care about most.

Activities
    The OIG accomplishes its mission by conducting audits, evaluations, assessments, and investigations
relating to the programs and operations of DOI. Our activities are tied directly to DOI’s major responsibilities
and are designed to assist DOI in developing solutions for its most serious management and program
challenges, most notably cross-cutting or DOI-wide issues. These activities are also designed to ensure that
we keep critical issues prominent, which greatly influences key decisionmakers and increases the likelihood
that we will achieve desired outcomes and results that benefit the public.


                        DOI’s Top Management Challenges
     Financial Management

     Information Technology

     Health, Safety, and Emergency Management

     Maintenance of Facilities


     Responsibility to Indians and Insular Areas

     Resource Protection and Restoration

     Revenue Collections

     Procurement, Contracts, and Grants

                                                                                                          Back To TOC

                             Semiannual Report to the Congress - October 1, 2006 - March 31, 2007                  
                    Department of the Interior




       Barnes/FWS

Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                       Significant Audits, Evaluations, and Investigations




    Former Deputy Secretary Pleads
    Guilty of Lying To Congress
        J. Steven Griles, the former DOI Deputy Secretary, pleaded
    guilty in U.S. District Court for the District of Columbia to one
    count of obstruction of proceedings before the U.S. Senate.

         Griles was interviewed by Senate investigators and later testi-
    fied before the Senate Indian Affairs Committee regarding his ties
    to lobbyist Jack Abramoff. The Senate interview and subsequent
    hearing specifically focused on the level of access that Abramoff
    had to Griles; the nature and extent of the relationship between
    Griles, Abramoff, and an unnamed person; and whether Griles had
    intervened on behalf of Abramoff’s clients on matters before DOI.

         Griles admitted that, during his interview and testimony, he had
    lied about his relationship with Abramoff. Griles also acknowl-
    edged that, contrary to his statement and testimony, Abramoff had
    enjoyed special access to him. Griles claimed that his personal and
    sometimes romantic involvement with the unnamed operator of a
    purported non-profit organization contributed to Abramoff’s
    access to him. This unnamed person introduced Griles to
    Abramoff, and Griles understood that Abramoff was a major
    contributor to the non-profit organization. In fact, during Griles’
    tenure at DOI, Abramoff’s clients contributed almost $500,000 to
    the non-profit organization.

        Griles further admitted in his plea that Abramoff—both directly
    and through the unnamed person—sought and received advice and
    intervention on issues within DOI’s jurisdiction that directly
    affected Abramoff and his clients.

    Embezzlement Charges Result
    in Recovery of $1.9 Million
        Janice Hughes, a former personnel manager with the National
    Plastering Industry’s Joint Apprenticeship Trust Fund, pleaded
    guilty in U.S. District Court for the District of Columbia to 13
    counts of bank fraud, mail fraud, and money laundering associ-
    ated with the theft of $911,420 in federal contract funds. She was
    sentenced to 51 months of incarceration and 36 months of super-
    vised probation. Also, she was ordered to make full restitution to
    the victims of her embezzlement—Department of Labor, DOI, and



                                                                Back To TOC


Semiannual Report to the Congress - October 1, 2006 - March 31, 2007          
                                        the Trust Fund. In addition to restitution, she is subject to a criminal
                                        forfeiture order for the full amount of the loss, which will be paid to
                                        the Department of Justice (DOJ) asset forfeiture fund.

                                            On April 1, 2003, the Department of Labor (DOL) OIG contacted
                                        the DOI OIG with information indicating that Gilbert A. Wolf, the
                                        former executive director of the National Plastering Industry’s Joint
                                        Apprenticeship Trust Fund, and Janice Hughes, former personnel
                                        manager of the same fund, improperly converted proceeds from DOI
                                        and DOL contracts to their own use.

                                           On March 13, 2005, a grand jury indicted Wolf and Hughes for
                                       six counts of bank fraud, five counts of mail fraud, and two counts of
                                       money laundering. Between 1995 and 2000, the couple had diverted
                                       trust fund monies to their personal account. Hughes, a 30-year trust
                          Balestra/OIG
                                       fund employee, was terminated in February 2001 after she was
                                       discovered destroying general ledger records in the trust fund office.

                                             Gilbert Wolf’s trial began on February 27 and ended on
                                        March 8, 2007. The jury deliberated until March 15 but was unable
                                        to reach a verdict. The judge dismissed the jury and declared a mis-
                                        trial. As of March 28, the U.S. Attorney’s Office has made no deci-
                                        sion about bringing this case to trial again.

                                            The National Plastering Industry’s Joint Apprenticeship Trust
                                        Fund is a non-profit training group governed by the Operative
                                        Plasterers’ and Cement Masons’ International Association. The fund
                                        provides pre-apprenticeship career training for disadvantaged youth at
                                        Job Corps centers administered by DOL and DOI.

                                        Former Congressman Pleads
                                        Guilty and is Sentenced
                                            Robert W. Ney, former U.S. Representative for the 18th
                                        Congressional District in Ohio, pleaded guilty in U.S. District Court,
                                        Washington, D.C., to one count of conspiracy and one count of
                                        making false statements. He was sentenced to 30 months of
                                        incarceration, to be followed by 24 months of supervised release,
                                        and ordered to pay a fine of $6,000.

                                             The charges stemmed from the ongoing Abramoff Task Force In-
                                        vestigation in which the DOI OIG participates. In addition to actions
                                        that transcend DOI, Ney’s conviction was based on his assistance to
                                        the Abramoff lobbying team regarding Indian tribes in Texas. In



                                                                                       Back To TOC
   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                      Significant Audits, Evaluations, and Investigations




    exchange for personal favors, Ney agreed to assist Abramoff by
    inserting amendments that opposed federal bans on Indian gaming in
    Texas into the Help America Vote Act. The amendments would have
    assisted Abramoff’s tribal clients.

         In exchange for this assistance, as well as other actions, Ney
    received an all-expense paid golf trip to Scotland, numerous meals and
    drinks at Washington, D.C., restaurants, and tickets allowing him to use
    Abramoff’s box suites to attend sporting events and concerts in
    Washington, D.C. In sentencing Ney, the U.S. District Court exceeded
    the government recommended term of incarceration, citing Ney’s failure
    to fully cooperate.

    Deputy Assistant Secretary
    Interferes With Reports, Discloses
    Non-Public Information
         Based on an anonymous complaint, the OIG investigated Julie
    MacDonald, Deputy Assistant Secretary, Fish, Wildlife and Parks, to
    determine whether or not she had been involved in unethical
    and illegal activities. Specifically, the complainant alleged that
    MacDonald had bullied, insulted, and harassed the professional staff
    of the U.S. Fish and Wildlife Service (FWS), requiring them to change
    documents and alter biological reports concerning the Endangered Spe-
    cies Program. As the OIG investigation progressed, it also became clear
    that MacDonald had disclosed nonpublic information to private sector
    sources.

         The OIG interviewed various sources, including FWS employees and
    senior officials. The OIG also reviewed pertinent documents and e-mails.
    These confirmed that MacDonald had heavily edited, commented on, and
    reshaped scientific reports submitted by the field. MacDonald admitted
    that she had a degree in civil engineering but no formal educational back-
    ground in the natural sciences, such as biology.

        While the OIG discovered no illegal activity on her part, agents did
    determine that MacDonald disclosed nonpublic information to private
    sector sources, including the California Farm Bureau Federation and the
    Pacific Legal Foundation. In fact, MacDonald admitted that she released
    nonpublic information to public sources on several occasions during her
    tenure as Deputy Assistant Secretary.




                                                              Back To TOC


Semiannual Report to the Congress - October 1, 2006 - March 31, 2007             
                                             Review by the OIG Office of General Counsel indicated that
                                         MacDonald’s conduct violated the Code of Federal Regulations
                                         (C.F.R.) under 5 C.F.R. § 2635.703 (Use of Nonpublic Information)
                                         and 5 C.F.R. § 2635.101 (Basic Obligation of Public Service,
                                         Appearance of Preferential Treatment).

                                         DOI Financial
                                         Statements Reviewed
                                             Under contract with DOI, the independent, certified public
                                         accounting firm of KPMG rendered an unqualified opinion on the
                                         consolidated DOI financial statements for FY2005 and 2006. KPMG
                       Del Vecchio/OIG   identified one material weakness and seven critical but less signifi-
                                         cant internal control weaknesses (reportable conditions). KPMG
                                         also found one deficiency in the DOI internal controls that required
                                         reporting the condition of museum property, as well as three instances
                                         where DOI did not comply with laws and regulations.

                                             KPMG also rendered unqualified opinions on the financial state-
                                         ments of DOI bureaus: the National Park Service (NPS); the Bureau
                                         of Land Management (BLM); the Office of Surface Mining,
                                         Reclamation and Enforcement; FWS; MMS; the Bureau of
                                         Indian Affairs (BIA); the Bureau of Reclamation; and the U.S.
                                         Geological Survey (USGS).

                                         Single Audits Scrutiny
                                         Identifies Deficiencies
                                              The Single Audit Act Amendments of 1996 require nonfederal
                                         entities that expend federal awards equal to or greater than $500,000
                                         (in any fiscal year) to obtain a single audit for that year. One respon-
                                         sibility of the OIG is to conduct quality control reviews of selected
                                         audits made by nonfederal auditors. The OIG recently completed 82
                                         reviews with the following results:

                                         u	One auditor referral was made to the American Institute of
                                           Certified Public Accountants and to a state board of accountancy
                                           for substandard work.

                                         u	 Seven reviews resulted in auditors reissuing the reports to
                                            correct deficiencies.

                                         u	 Thirteen reviews found that the auditor did not conduct sufficient 	




                                                                                           Back To TOC
   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                       Significant Audits, Evaluations, and Investigations




         tests of major programs, or that the level of testing did not meet 	
         federal requirements.

        In addition, the OIG completed two comprehensive Quality
     Control Reviews:

     u	 In the Delaware Nation audit for the year that ended September 30,
        2005, the auditor insufficiently documented the major program
        determination process, major program materiality, and identification
        of applicable compliance requirements. In addition, the
        auditor failed to prepare an audit program for audit work relating to
        major program internal controls and obtain an adequate understand-
        ing of internal control over compliance for the major programs.

     u	 In the National Park Foundation audit for the year that ended
        June 30, 2005, there were no deficiencies requiring any changes
        or corrective action.

     Program Assessment Rating
     Tool (PART) Reviews
         Federal agencies use PART, a standard questionnaire, to submit
     federal program information to the Office of Management and Budget
     (OMB). Then OMB uses the submitted information to determine pro-
     gram effectiveness, followed by recommended improvements for rated
     programs and follow-up on those improvements. The Deputy Secretary
     asked the OIG to review the programs assessed by OMB using PART and
     to suggest improvements for programs that could not demonstrate results.
     During the current period, the OIG conducted the following three re-
     views of DOI programs designated as “Results Not Demonstrated” by
     OMB:

     u	 BIA Road Maintenance Program: Overall, BIA has made progress
        in addressing the three OMB recommendations related to the road
        maintenance program. BIA has developed a performance mea-
        sure, issued regulations encouraging state and local governments to
        maintain their roads through Indian reservations, and arranged for the
        Federal Highway Administration to conduct an independent evalua-
        tion of the program. The OIG identified areas still needing improve-
        ment. Its report suggesting improvements is structured to correspond
        to key recommendations from OMB’s 2004 program assessment. If
        BIA satisfactorily addresses the areas of improvement identified by
        the OIG, the road maintenance program should be better positioned
        to achieve a positive rating in its upcoming PART reassessment.


                                                                  Back To TOC


Semiannual Report to the Congress - October 1, 2006 - March 31, 2007             
                                      u	 FWS National Wildlife Refuge System (NWRS) Program:
                                         Overall, FWS has made significant progress in addressing the
                                         four OMB recommendations related to the wildlife refuge system.
                                         FWS has developed a 5-year draft strategic plan (2006-2010);
                                         developed and implemented an automated system that allows
                                         aggregation of performance data at national and regional levels;
                                         engaged an independent contractor to evaluate program effective-
                                         ness in addressing strategic goals; and made considerable progress
                                         in linking individual employee performance plans to appropriate
                                         targets. The OIG identified areas still needing improvement. The
                                         report suggesting improvements is structured to correspond to key
                                         recommendations from OMB’s 2003 program assessment. If FWS
                                         satisfactorily addresses the areas identified for improvement, we
                                         believe the NWRS program will be better positioned to achieve a
                         Balestra/OIG
                                         positive rating in its upcoming PART reassessment.

                                       u	 BIA Law Enforcement Program: Based on BIA’s 2003
                                          law enforcement PART assessment, OMB recommended
                                          actions to improve program operations. The OIG reviewed
                                          the program in 2006 and observed some progress toward imple-
                                          menting each of OMB’s recommendations. Specifically, the
                                          program has drafted an interagency agreement to coordinate
                                          activities with the DOJ Community Oriented Policing Services
                                          Program; drafted a strategic plan for the Office of Justice Services
                                          Division of Corrections; developed a prototype system for
                                          collection of performance data; and completed numerous reviews
                                          and inspections of field activities. A lot of work remains in order
                                          to improve the reliability of program performance information.
                                          The OIG report provides 25 suggestions for further improvement,
                                          and it is structured to correspond to key recommendations from
                                          OMB’s 2003 program assessment.

                                       DOI and DOD Audit
                                       Acquisition Centers
                                            Interagency contracting is a tool that, when effective, can help
                                       agencies to streamline the acquisition process and increase cost
                                       efficiency. DOI has two acquisition centers that assist other govern-
                                       ment agencies. These are GovWorks (National Business Center
                                       or NBC) and the Acquisition Services Division, Southwest Branch
                                       (SWB) of NBC. In FY2005, DOI executed procurements through
                                       these centers in excess of $1.7 billion on behalf of the Department
                                       of Defense (DOD).




                                                                                     Back To TOC

   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                       Significant Audits, Evaluations, and Investigations




        The National Defense Authorization Act for FY2006 required that
    the DOD Inspector General work with the other Inspectors General to
    review procurement policies, procedures, and internal controls, as well
    as administration for all agencies processing more than $100 million in
    DOD procurements. To meet this requirement, the DOD OIG and the
    DOI OIG jointly audited the two DOI contracting centers that provide ac-
    quisition services to DOD. The audit sought to determine whether DOI
    complied with DOD procurement requirements, including whether DOI
    and DOD used and tracked funds properly. The DOD OIG also evalu-
    ated whether DOD had a legitimate need to use DOI contracting services.

         Overall, the audit determined that neither GovWorks nor SWB
    complied in full with legal requirements, with federal acquisition regula-
    tions, and with DOD supplemental requirements. In fact, the contracting
    centers routinely violated rules designed to protect federal interests and
    the public trust. These actions put DOI at risk for Antideficiency Act vio-
    lations, and put the acquisition centers at risk for loss of business as well
    as loss of public confidence and trust.

    Radio Communications Program
        The DOI Radio Communications Program has an unsafe and unreli-
    able radio environment that jeopardizes the health and safety of DOI
    employees and the public because:

    u	 The poorly maintained infrastructure poses physical safety
       hazards and does not support reliable communications.

    u	 The new radio technology adopted by DOI does not effectively meet
       users’ needs.

    u	 DOI has a fragmented radio communications program that fails to
       connect two critical components—infrastructure and equipment.

         The OIG found that DOI’s mandate to purchase advanced digital
    radios failed to consider user needs, did not include adequate
    training, and contributed to DOI’s failure to meet the federal requirement
    to transition to narrowband radio technology by January 1, 2005. The
    OIG audit identified approximately $25 million in unnecessary expendi-
    tures because of this mandate. Additionally, the OIG estimated that one
    bureau still could save approximately $10.5 million if exempted from
    this mandate.




                                                                  Back To TOC



Semiannual Report to the Congress - October 1, 2006 - March 31, 2007                
                                             Without fundamental changes to the radio communications
                                        program, DOI will continue to jeopardize the safety of its
                                        employees and the public, as well as squander resources. Given
                                        the critical nature of radio communications and the seriousness of
                                        the issues identified by the OIG, we believe that the radio com-
                                        munications program remains a material weakness for DOI. The
                                        OIG report provided seven recommendations intended to improve the
                                        safety and reliability of the program, improve cost management, and
                                        meet the narrowband requirement.

                                        Audit Examines Hurricane
                                        Relief Expenditures
                                             The devastating hurricanes of 2005 had a two-fold impact on
                                        DOI. First, DOI assisted with federal relief efforts under the National
                         Balestra/OIG   Response Plan (NRP). Second, bureaus directly experienced the im-
                                        pact of the disasters. DOI sustained significant damage to 12 parks and
                                        preserves, 86 refuges, 68 water monitoring gauges, and the MMS Gulf
                                        of Mexico Regional Office. As of September 30, 2006, DOI spent
                                        approximately $104 million on hurricane relief and recovery. This
                                        included approximately $61 million for NRP activities and $43 million
                                        with which to address internal damage. The OIG is pleased to report
                                        that, overall, the bureaus effectively managed their 2005 hurricane-
                                        related expenditures. Given the magnitude of Gulf Coast and DOI
                                        facilities’ damages, the issues the OIG identified through expenditure
                                        testing proved relatively insignificant. The bureaus performed well.

                                        Verification Reviews Completed
                                             DOI managers ensure that actions agreed upon during the audit
                                        process have, in fact, been taken. As part of the OIG’s ongoing
                                        strategy to ensure such implementations, we performed verification
                                        reviews of 14 recommendations from 5 prior audit reports. These
                                        reviews determine whether or not managers actually implemented the
                                        recommendations they reported having completed.

                                            Our review concluded that managers did not take appropriate ac-
                                        tions to implement 4 (37 percent) of the 14 recommendations they
                                        had reported as implemented. Since one of these recommendations no
                                        longer applied, we proposed that it be considered closed and not imple-
                                        mented. As for the other 3, the OIG requested that DOI reinstate them
                                        and take appropriate follow-up action.




                                                                                        Back To TOC
   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                      Significant Audits, Evaluations, and Investigations




    Qualified Opinion
    on Finances Issued
        The Office of the Special Trustee for American Indians (OST) has
    made substantial progress in addressing internal control weaknesses dur-
    ing FY2006 and continues to focus its efforts on continual improvement.
    KPMG, under contract with OST, issued qualified opinions on FY2005
    and 2006 Tribal and Other Trust Funds and on Individual Indian Monies
    Trust Funds financial statements prepared by OST.

         According to KPMG’s report, it was not practicable for the auditors
    to extend their auditing procedures to determine the fairness of trust
    fund balances due to a class action lawsuit for an accounting of individu-
    als’ trust funds, disagreements with trustees on account balances, and
    legal claims against the federal government because of inadequacies in
    certain DOI trust-related systems and processes. The report also identi-
    fied a material weakness related to OST’s reliance on processing trust
    transactions at BIA, as well as unresolved financial reporting issues
    from prior periods.

    NBC Trusted Insider
    Threat Evaluated
        Currently the OIG is evaluating NBC’s internal network security
    control architecture to understand the extent to which someone with
    insider knowledge and physical access could obtain unauthorized ac-
    cess to critical information technology (IT). During this evaluation, the
    OIG demonstrated that such unauthorized access can be obtained by an
    attacker with only physical facilities access. Using unauthorized access
    gained from its evaluation, the OIG obtained authentication credentials
    belonging to DOI’s “Enterprise Admins” group, which facilitated sub-
    stantial access to IT resources. As a result, DOI received a “Notice of
    Finding and Recommendations,” containing specific measures to mitigate
    such risks.




                                                               Back To TOC




Semiannual Report to the Congress - October 1, 2006 - March 31, 2007             
                                 Bureau Of Indian Affairs




              Kelly/OIG
10 Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                       Significant Audits, Evaluations, and Investigations




     School Officials Indicted
         On October 26, 2006, seven school board members and
     employees of Twin Buttes School, Three Affiliated Tribes,
     Fort Berthold Reservation, ND, were indicted for alleged
     conspiracy and federal offenses resulting in illegal receipt of
     approximately $665,000 of federal funds.

         Melissa Starr, the Twin Buttes School Board president,
     was charged with fraud and misapplication of federal funds;
     embezzlement and theft from an Indian tribal organization;
     wire fraud; and conspiracy. She allegedly took more than
     $330,000 in travel advances, cash, wire transfers, checks,
     and debit withdrawals. Tammy Grady, a former Twin Buttes
     School Board member, was similarly charged after allegedly
     taking more than $126,000 in travel advances, cash, wire
     transfers, and checks.

          Elaine Incognito, the former Twin Buttes principal, and
     Lillian Holen, the school’s former financial officer, were sim-
     ilarly indicted. Incognito allegedly took more than $67,000
     in payroll advances, travel advances, wire transfers, checks,
     and cash, while Holen allegedly took more than $35,000 in
     payroll advances, stipends, travel advances, checks, and cash.
     School Custodian Paul Fredericks was indicted on the same
     charges, allegedly having stolen more than $63,000 in travel
     advances, travel reimbursement, stipends, checks, and cash.

         With the single exception of wire fraud, school board
     members Hank Starr and Darwin Lone Bear faced the same
     charges. They allegedly had taken $43,000 and $25,000,
     respectively, in travel advances, travel reimbursement,
     checks, and cash.

     Radio Communications
     Program Audited
          An OIG audit identified that BIA purchased and stored
     an estimated $3.6 million in radio equipment it could not use.
     BIA started purchasing equipment in FY2000 as part of its
     conversion to mandated narrowband radio technology. Since
     it lacked a plan to guide its equipment purchase, BIA wasted
     valuable resources buying unusable equipment for which it
     will continue to incur storage and maintenance costs, as well
     as extensive costs to upgrade, refurbish, replace, or dispose

                                                                 Back To TOC


Semiannual Report to the Congress - October 1, 2006 - March 31, 2007           11
                                        of the aging equipment. BIA also lacked inventory controls over ap-
                                        proximately $6.2 million in purchased equipment, resulting in greater
                                        potential losses due to fraud, theft, or negligence.

                                            The OIG also found that BIA maintained inadequate contract
                                        documentation to support the $20 million expended on this technol-
                                        ogy. Specifically, it failed to locate documentation for two contracts,
                                        while documentation for other procurements proved incomplete.
                                        Finally, BIA improperly awarded at least $5.5 million in sole source
                                        tasks to a contractor by inappropriately modifying an existing task
                                        order in violation of the Federal Acquisition Regulation. Overall, the
                                        modifications more than quadrupled expenditures for the task order
                                        and nearly tripled the performance period.

                           Barnes/FWS   Tribal Casino Employee
                                        Pleads Guilty To Theft
                                             Marnekia Milner, a former cashier/counter at a casino owned by
                                        the Poarch Band of Creek Indians, pled guilty on July 21, 2006, to a
                                        one-count indictment of theft. She was sentenced on November 15
                                        to 5 years of probation. The court ordered her to pay $10,000 in full
                                        restitution to the Tallapoosa Entertainment Center.

                                             An inquiry began in March 2004 when the Assistant U.S. Attorney
                                        (AUSA), Middle District of Alabama, contacted a DOI special agent
                                        at the Indian Gaming Conference in Connecticut. The AUSA reported
                                        allegations of embezzlement from a casino owned by the Poarch Band
                                        of Creek Indians (Tallapoosa Entertainment Center) within his district.
                                        The AUSA also provided information that enabled the DOI OIG to
                                        launch an investigation.

                                             On June 30, 2004, the OIG interviewed Marnekia Milner, one
                                        of two second-shift employees working at the time of the theft. She
                                        confessed to taking $10,000. On January 20, 2006, a true bill was
                                        returned by a federal grand jury in the Middle District of Alabama, in-
                                        dicting Milner, and an arrest warrant was issued. Milner was arrested
                                        on February 2, 2006, and pleaded not guilty at arraignment. At a pre-
                                        trial conference held on July 17, she accepted a plea agreement.

                                        Chief Financial Officer
                                        Arraigned for Embezzlement
                                            A lengthy multi-agency investigation that included the IRS, the
                                        California Department of Justice, and the DOI OIG led to the indict-
                                        ment of Kathy Redhorse, the former chief financial officer for the
                                        Shodakai Coyote Valley Casino, located in Ukiah, CA. Redhorse was

                                                                                          Back To TOC
12   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                      Significant Audits, Evaluations, and Investigations




     indicted on October 17, 2006, for the theft of casino funds, and
     charged with conspiracy and obstruction of justice.

     Tribal Officials Sentenced
         Three former officials of the Standing Rock Sioux Tribe’s
     Running Antelope District were sentenced for their roles in the
     theft of approximately $100,000. Those officials included Chair-
     man Leslie Bobtail Bear; Treasurer Susie Long Elk; and Council-
     man Allen Flying By.

         As detailed in the October 2006 Semiannual Report to the
     Congress, Bobtail Bear and Long Elk pleaded guilty to embezzle-
     ment and theft charges, and Flying By was convicted by a federal
     jury of three felony counts, as well as one misdemeanor count of
     embezzlement and theft.

         The $100,000 represents approximately 10 percent of the
     $1 million that the Standing Rock Sioux Tribe provided to the
     Running Antelope District during 2002. Those monies originated
     as federal compensation from a land claim settlement of approxi-
     mately $90.6 million held in trust by DOI. The tribe draws
     interest from the trust fund.

         On October 16, 2006, Bobtail Bear and Long Elk were
     sentenced to probation and ordered to pay restitution. On
     December 18, 2006, Flying By was sentenced to 33 months of
     incarceration, 36 months of supervised probation upon release,
     and restitution.

          Darrel Semmler, a businessman indicted in June 2006 for
     allegedly paying a kickback to Flying By, was acquitted of that
     charge by a federal jury at the conclusion of his October 2006 trial,
     held in Aberdeen, SD. Previously, seven other Running Antelope
     District officials had been indicted and sentenced to probation and
     restitution. One of those same seven also was sentenced to 14
     months of incarceration.

     Businessman Indicted
         Craig Keith Potts, the former owner of Cash Systems, Inc.,
     was indicted following an investigation in 2003 and 2004 that
     focused on contracting and possible corruption involving the
     Minnesota Ojibwe Leech Lake Band. Potts was charged with con-
     spiracy, making a false statement, and obstruction of justice.


                                                                Back To TOC


Semiannual Report to the Congress - October 1, 2006 - March 31, 2007          13
                                           During 2003 and 2004, he represented his company in negotia-
                                       tions with the tribe to develop a new casino on lake front property
                                       near Walker, MN. During this time, Potts directed that $35,000 be
                                       paid to the tribe’s gaming director. Afterwards, during the
                                       subsequent investigation, he allegedly conspired with others to ob-
                                       struct any discovery of the source and nature of the payment.

                                       Housing Officer Accepted
                                       Illegal Gratuities
                                           Frank Joseph, a former BIA housing officer in Aberdeen, SD,
                                       was sentenced for accepting illegal gratuities. As the administrator of
                                       a housing program allocating approximately $2 million annually to
                                NPS    Indian tribes and tribal organizations in North Dakota, South Dakota,
                                       and Nebraska, he oversaw renovation of dilapidated homes and the
                                       purchase of new homes for needy tribal members.

                                           A previously filed indictment charged that Joseph, along with
                                       Gilbert Kills Pretty Enemy, a former housing specialist supervised by
                                       Joseph, accepted payments from a salesman of manufactured homes
                                       to ensure his company’s selection as the new home vendor for
                                       structures purchased with BIA money. The salesmen providing the
                                       payments died as the investigation began.

                                            After their indictment, Joseph and Kills Pretty Enemy retired
                                       from the BIA. On October 16, 2006, Joseph was sentenced to 24
                                       months of supervised probation and fined $750. On December 29,
                                       2006, Kills Pretty Enemy negotiated an agreement to pay a $300
                                       fine in exchange for the dismissal of all charges against him without
                                       prejudice. The October 2006 Semniannual Report to the Congress
                                       contained other case details.

                                       Company Owner Guilty of Theft
                                            Robert Gipson, co-owner of Cedar River Construction, pleaded
                                       guilty in U.S District Court, Billings, MT, to one count of theft from
                                       an Indian tribal organization. He acknowledged entering into two
                                       fictitious contracts with the Crow Tribe, and accepting tribal funds
                                       totaling $108,800, knowing that no goods, work, or service had been
                                       performed. Subsequently, he made kickback payments to Clifford
                                       BirdinGround, the Crow tribal chairman, and Kelly Passes, the Crow
                                       tribal finance director.

                                           Kelly Passes and three other enrolled Crow Tribe members were
                                       previously convicted of felony charges that included conspiracy;
                                       theft from an Indian tribal organization; and obstruction of justice. A

                                                                                          Back To TOC
14   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                       Significant Audits, Evaluations, and Investigations




   fourth person negotiated a pretrial agreement. BirdinGround pleaded
   guilty. However, as a condition of his plea agreement, he was not
   charged for accepting Gipson’s bribes.

   Ft. Peck Officials
   Enter Guilty Plea
        Desiree Lambert, the former Ft. Peck Department of Education
   director, pleaded guilty to filing false claims and to theft from an Indian
   tribal organization. Lambert was sentenced to 12 months of impris-
   onment, 3 years of supervised release, and $13,855 in restitution, in
   conjunction with monies misappropriated from funds for student loans.

        Her husband, Bernard Lambert, a Brockton School District former
   superintendent, pleaded guilty to conspiring with her. He was sentenced
   to 12 months of imprisonment; 3 years of supervised release, and a
   restitution payment of $12,000.

       Between November 26, 2001, and December 26, 2002, the couple
   received payments from fraudulent invoices under a contract that
   funded educational services on the Ft. Peck Indian Reservation. Desiree
   Lambert hired her husband to write grant applications for the schools.
   Although he never wrote the applications, the Lamberts still submitted
   invoices amounting to $12,000. Ms. Lambert also submitted a false
   federal income tax return supporting her daughter’s application for
   federal student aid. She claimed to be a single parent with a solitary in-
   come when, in fact, she was legally married and part of a dual income
   household.

        Raymond Dolezilek, a former consultant to the Ft. Peck Tribes,
   likewise pleaded guilty to conspiring with Desiree Lambert to receive
   fraudulent invoice payments under a contract funding Ft. Peck edu-
   cational services. Dolezilek filed these false invoices and then gave
   Lambert a kickback for each fraudulent voucher. He was sentenced to
   3 years of supervised release and restitution of $8,510 to the Ft. Peck
   tribes. Since Dolezilek already was serving a 10-month jail sentence
   for an unrelated bribery offense, the judge sentenced him to time
   served.

   Fugitive Sentenced for
   Defrauding Tribe
       Neal Kenneth Allen was sentenced in U.S. District Court, Western
   District of Wisconsin, to 26 months of incarceration, followed by 3
   years of supervised release. He was also ordered to repay $291,693 to
                                                                     Back To TOC

Semiannual Report to the Congress - October 1, 2006 - March 31, 2007               15
                                       the Lac du Flambeau Band of Lake Superior Chippewa Indians and
                                       $71,345 to Aerotech Laboratories, Inc., of Phoenix, AZ. In sentencing
                                       Allen, the U.S. District Court recommended that he undergo a mental
                                       health evaluation.

                                           Allen previously pleaded guilty to mail fraud in connection to his
                                       swindle of the Lac du Flambeau Band. He had been indicted in Feb-
                                       ruary 2004 but fled to Central America. He was arrested in December
                                       2005 while attempting to enter Puerto Rico on a flight from
                                       Costa Rica.

                                            Allen had posed as an expert in the field of mold testing and
                                       abatement, and he conned the Lac du Flambeau tribe into paying him
                                       to test numerous reservation homes for mold. Additional information
                                 NPS   on this case appeared in the April 2006 Semiannual Report to
                                       the Congress.

                                       Petroleum Engineer Convicted
                                       Of Child Pornography
                                           After two mistrials, a federal jury found a BIA petroleum
                                       engineer guilty of one felony count of possession of child
                                       pornography. Kenneth Young had stored the images on his
                                       government-issued computer.

                                           Young possessed hundreds of child pornography images on his
                                       computer that he had obtained through interstate commerce. This
                                       investigation is a cooperative effort shared by the FBI and the OIG.

                                       Tribal Official Convicted for
                                       Embezzlement and Theft
                                            The DOI OIG initiated this investigation when it received infor-
                                       mation that Mary Margaret Lewis, a former bookkeeper for Kialegee
                                       Tribal Town (KTT), Wetumka, OK, was suspected of embezzling
                                       tribal and federal funds.

                                           From banking records provided by KTT, as well as those obtained
                                       with grand jury subpoena authority, it was determined that Lewis had
                                       drafted tribal checks to the IRS, had them signed by KTT officials,
                                       and then altered the payee from the IRS to Mary M. Lewis, using
                                       a KTT typewriter. From February 2002 through September 2004,
                                       Lewis embezzled $299,887 from KTT. This included DOI funds.




                                                                                     Back To TOC
16   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                     Significant Audits, Evaluations, and Investigations




        Lewis was indicted for one count of embezzlement and theft from an
    Indian tribal organization, and one count of theft from programs receiv-
    ing federal funds. She pleaded guilty on July 19, 2006. On December
    14, 2006, she was sentenced to 30 months of imprisonment and 24
    months of probation. She was ordered to pay a full restitution
    of $299,887.

    Six Former Kickapoo Tribal
    Officials Plead Guilty
         On October 24, 2006, five former Kickapoo Traditional Tribe of
    Texas (KTTT) officials pleaded guilty to embezzlement and tax evasion
    conspiracies in U.S. District Court, Western District of Texas, Waco, TX,
    in connection with a scheme to steal more than $900,000 in funds from
    the tribe. Raul Garza, Sr., former KTTT tribal chairman, pleaded guilty
    to one count of conspiracy to embezzle funds from the KTTT. Isidro
    Garza, Jr., former KTTT tribal representative, pleaded guilty to one
    count of conspiracy to embezzle funds from the KTTT and one count of
    conspiracy to evade income tax. Isidro Garza, Jr.’s wife, Martha Garza,
    and son Timoteo Garza (former Texas state representative), each pleaded
    guilty to one count of conspiracy to evade income tax. Arthur Lee Mar-
    tin, former KTTT casino manager, also pleaded guilty to one count of
    conspiracy to embezzle funds from the tribal casino.

         On November 14, 2006, the sixth defendant, Isidro Xavier Garza
    (the second son of Isidro Garza, Jr.) pleaded guilty to one count of
    failure to file an income tax return, in connection with a scheme to
    unlawfully use his company, Bay Area Consultants, to receive
    embezzled funds from his father.

         On January 31, 2007, Isidro Xavier Garza was sentenced to
    12 months of supervised release and fined $3,000. The remaining
    five defendants await sentencing.




                                                              Back To TOC


Semiannual Report to the Congress - October 1, 2006 - March 31, 2007            17
                      Bureau Of Land Management




18   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                      Significant Audits, Evaluations, and Investigations




   Gravel Company Vice President
   and BLM Geologist Convicted
       Curtis Slade, former vice president of Newco Aggregate in
   Farmington, NM, pleaded guilty in the U.S. District Court for the
   District of New Mexico to providing gratuities to a public official.
   Newco held BLM sand and gravel permits. He gave Ralph Mason,
   a geologist with BLM’s Farmington Field Office, gratuities to overlook
   permit requirements and accelerate the permit process.

        Mason was convicted in 2006 for accepting bribes from Slade and
   Norman Geoff McMahon. Following the conviction, he was removed
   from federal employment. McMahon was acquitted of bribery charges in
   late 2006. Sentencing for Slade has been postponed until summer 2007.

   BLM Trusted Insider
   Threat Evaluated
        The OIG evaluated BLM’s internal network security control
   architecture to understand the extent to which someone with insider
   knowledge and physical access could obtain additional, but un-
   ­authorized, access to critical IT. The OIG demonstrated that unauthor-
    ized access to information resources could be obtained by an attacker
    who only has physical access to BLM facilities. The OIG also identified
    similar configuration weaknesses in BLM’s Information Access
    Centers. These weaknesses allow ordinary public users to arrive
    unannounced and then easily gain unauthorized access to internal IT
    resources that include sensitive information.

        The OIG provided three technical briefings to BLM IT security
   staff to encourage them to implement security controls. The OIG also
   provided BLM with recommendations for specifically mitigating insider
   threat and requested that the bureaus be notified of these measures.




                                                              Back To TOC

Semiannual Report to the Congress - October 1, 2006 - March 31, 2007          19
                     Minerals Management Service




20   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                      Significant Audits, Evaluations, and Investigations




    MMS Process Reviewed
         MMS compliance reviews are a legitimate tool with which to evalu-
    ate the reasonableness of company-reported royalties and allow broad
    coverage of royalties while requiring fewer agency resources. However,
    compliance reviews only test the reasonableness of royalties paid. They
    lack the royalty verification provided by audits. Therefore, they should
    be part of a risk-based compliance strategy that incorporates both. Our
    audit disclosed weaknesses in MMS’ compliance review management
    and its overall Compliance and Asset Management (CAM) Program. It
    determined that: MMS lacks reliable management information to ad-
    equately develop a compliance strategy, monitor progress, and assess
    results of CAM; MMS needs to improve its compliance review process
    to maximize outcomes; and MMS performance measures are inadequate
    and need to be revised. MMS agreed with the report’s recommendations.

    Loss of Royalties Investigated
        In March 2006, the OIG opened an investigation to determine how
    MMS omitted price threshold language from 1998 and 1999 Gulf of
    Mexico oil and gas leases, which would have required companies to pay
    royalties when oil and gas prices reached a certain level. According to
    MMS, 1,032 leases were issued during this period without price thresh-
    olds, 570 of which remain active. The OIG conducted 44 interviews and
    reviewed approximately 19,000 e-mails and 20,000 document pages to
    determine how MMS omitted price threshold language, and when and
    with what response MMS officials learned of these omissions.

         The OIG found that following the 1995 Outer Continental Shelf
    Deep Water Royalty Relief Act, MMS made a policy decision to include
    price thresholds in leases issued from 1995 to 2000. MMS field staff
    initially attached addenda to the leases containing price threshold lan-
    guage but stopped for 2 years, citing a regulation they thought con-
    tained the appropriate language, but that, in fact, did not. The MMS
    review process, which included the Office of the Solicitor, failed to
    identify the discrepancy.

         The OIG found that once the omission was brought to the attention
    of the former Associate Director for Offshore Minerals Management
    (OMM) in 2000, she chose not to inform the former MMS Director,
    preferring to “work out a solution within OMM.” Both the former MMS
    Director and Deputy Director said they learned of the issue contempora-
    neously with a January 2006 New York Times article. The current Direc-
    tor testified before Congress that she became aware of the issue either
    contemporaneously with, or just prior to, the article. A series of uncov-
    ered e-mails, however, suggest that the current Director may have been
    told of the omissions as early as 2004. Upon reviewing these e-mails,
    she conceded to the OIG that she must have been advised in 2004.
                                                                      Back To TOC
Semiannual Report to the Congress - October 1, 2006 - March 31, 2007                21
                                        National Park Service




                    NPS

22   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                       Significant Audits, Evaluations, and Investigations




 NPS Ranger Convicted On
 Child Pornography Charges
     Andrew Lewis, an NPS ranger at Salem Maritime National Historic
 Site in Salem, MA, was convicted on child pornography charges. He was
 sentenced on January 9 to 5 years in prison, 3 years of supervised release,
 mandatory registration as a sex offender, and participation in mental health
 programs while incarcerated.

     On February 6, 2003, a computer that had been Lewis’ personal
 property sat with several other computers as the batch were being prepared
 to be excessed and donated to local schools. During this process, Lewis’
 computer was found to contain pornographic images of young males. A
 forensic examination of Lewis’ computer found evidence of newsgroup sites
 containing child pornography, as well as numerous pornographic images and
 movies with very young children. Investigators subsequently issued Inspec-
 tor General subpoenas to Earthlink, Intergate, and Yahoo to obtain specified
 Internet Service Provider information on Lewis. Lewis consented to hav-
 ing his home computer searched. This search revealed further pornographic
 imagery. On February 16, 2004, Lewis provided a detailed confession of
 his actions.

     Lewis was indicted by a federal grand jury on one count of child pornog-
 raphy. During the investigation, agents learned that Lewis had been accused
 of sexually assaulting his daughter in November 2000. At the request of the
 AUSA, agents traveled to California to interview the child’s mother, who
 confirmed Lewis’ sexual assault and provided numerous documents regard-
 ing the investigation and her subsequent custody award.

 Man Found Dead In Home
      One month before reporting to a federal prison on charges related to
 trafficking in Native American cultural items, John Carta was found dead
 in his home. After pleading guilty, Carta previously had been sentenced to
 1 year in federal prison and 1 year of probation by the U.S. District Court,
 District of Hawaii, for conspiring with his co-defendant, Daniel Taylor, to
 the trafficking scheme.

     Carta admitted that from June to August 2004, he and Taylor profited
 from the theft and sale of Native Hawaiian artifacts found in an ancient
 burial cave known as Kanupa Cave on the island of Hawaii. Removal of
 these artifacts violated the Native American Graves Protection and
 Repatriation Act. The OIG recovered nearly all the stolen artifacts. Taylor is
 scheduled to be sentenced in May.



                                                                 Back To TOC

Semiannual Report to the Congress - October 1, 2006 - March 31, 2007              23
                                        Woman Charged In Arizona
                                        Memorial Museum Theft
                                            Fe Nakahara was indicted in the U.S. District Court, District of
                                        Hawaii, for larceny and theft of government property. The indict-
                                        ment alleged that Nakahara, an employee with accounting and ad-
                                        ministrative duties at the Arizona Memorial Museum Association,
                                        stole museum property and cash currency valued at approximately
                                        $170,000. This is an ongoing investigation jointly conducted by the
                                        NPS and the OIG.

                                        Improved Process Would
                                        Increase Construction
                           Barnes/FWS   Project Accountability
                                            NPS established its Partnership Construction Process during
                                        FY2004 and 2005 to provide accountability for expensive park
                                        projects constructed in partnership with private entities or with
                                        other federal, state, or local governmental agencies. Congress
                                        expressed particular interest in how these projects impacted park
                                        operation and maintenance (O&M) activities.

                                            The Partnership Construction Process represents a positive
                                        step toward accountability, though NPS has not yet fully imple-
                                        mented it. For example, NPS has neither defined what constitutes
                                        a partnership nor identified partnership construction projects that
                                        meet this definition, so as to ensure that all projects are identified,
                                                                                                       Back To TOC




24   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                      Significant Audits, Evaluations, and Investigations




    tracked, and reported to senior management and, as appropriate,
    to Congress.

         Also, on a consistent basis, NPS has not prepared accurate and
    reliable O&M cost estimates for partnership construction projects.
    In addition, NPS needs to streamline the project review and approval
    process, and designate a single point of contact to track partnership
    construction projects. The OIG suggested six steps that, if taken,
    should improve both the implementation of the process and the
    accountability of partnership construction projects.




                                                       Back To TOC


                                                                 Barnes/FWS




Semiannual Report to the Congress - October 1, 2006 - March 31, 2007          25
                                 Office of Insular Affairs




26   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                      Significant Audits, Evaluations, and Investigations




   Former Desk Officer Sentenced
        On July 23, 2006, Roger Stillwell, the desk officer for the
   Commonwealth of the Northern Mariana Islands (CNMI), Office of
   Insular Affairs (OIA), retired from federal service. Less than a month
   later, on August 11, 2006, he pleaded guilty to 1 misdemeanor count
   under Title 18, cited as making a false certificate or writing. He was
   sentenced on January 9, 2007, to 24 months of supervised probation
   and fined $1,000. Stillwell admitted to falsely reporting that he had
   not received gifts worth more than $285 from any one source, when, in
   fact, gifts from lobbyist Jack Abramoff exceeded that amount.

   Progress Continues With
   Inspections and Training
       Progress continued with Insular Areas Governments’ (IAG)
   financial and program management inspections, as well as with
   the development of capacity building opportunities for Insular Areas
   Public Auditor Offices. These activities improve investigative and
   auditing skills with which to evaluate the effectiveness of government
   management and, in particular, Compact funding usage and program
   accomplishments, as well as Compact accounting systems, controls,
   and reporting processes.

        A review of IAG accountability found that control and compliance
   weaknesses regularly impact the financial and operational effectiveness
   of federally and locally funded programs. The U.S. funds involved are
   substantial—recently audited IAG reports showed at least $683 million
   in federal funds—and the related accountability issues are well known
   by federal grantor agency officials, including OIA officials charged
   with monitoring IAG awards.

        However, through the years, federal oversight and the enforce-
   ment of corrective actions have proven ineffective. As a result, federal
   grantor agencies need to critically evaluate their oversight respon-
   sibilities and the processes with which they identify and implement
   critical improvements. Such an evaluation also may require regular
   emphasis on the need for and benefits of improved accountability. In
   addition, annual government ethics training should be stressed because
   accountability issues regularly have resulted from questionable, weak
   management practices, and from ignoring or circumventing established
   policies and procedures. Instituting annual ethics training for IAG
   executive and legislative branch officials as a mandatory requirement
   for any future federal grant award also may be appropriate at this time.
   Recently identified misuse of Compact monies in excess of
   $1 million in each of the States of Chuuk and Kosrae, and in the

                                                                 Back To TOC

Semiannual Report to the Congress - October 1, 2006 - March 31, 2007           27
                                        Federated States of Micronesia, further underlines the need for IAG
                                        officials to receive mandatory ethics training.

                                            The OIG provided the following capacity-building training op-
                                        portunities to the Insular Areas Public Auditor Offices:

                                        u	 Mainland Training: Two auditors from the Guam
                                           Public Auditor Office have been scheduled for training in
                                           Denver, CO. Similar training opportunities will be offered later
                                           in the year to the investigators and auditors of the other Public
                                           Auditor Offices.

                                        u	 On-Site Training: The OIG presented training to Public
                                           Auditor Offices staff, focusing on the development of
                                           inspection objectives and scope. Other training, which will
                                           focus on the inspection of IAG revenue activities, will help staff
                                           determine whether the IAG have contained their fiscal deficits
                                           by implementing an effective revenue management system.

                                            The OIG suggested ways in which OIA staff could improve
                                        development and oversight of Compact cash management and
                                        reporting controls in the Federated States of Micronesia and the
                                        Republic of the Marshall Islands.

                                        Evaluation Identifies Loan
                                        Portfolio Deficiencies
                                             The OIG found that serious loan portfolio deficiencies, coupled
                                        with a significant economic downturn, threaten the viability of the
                                        development bank of CNMI. The bank, operated under the Com-
                                        monwealth Development Authority (CDA), was established to drive
                                        economic growth through loans to new and existing businesses.
                                        After 20 years of operation, CDA’s uncorrected loan portfolio defi-
                                        ciencies have resulted in high delinquency rates and plummeting as-
                                        sets. The deficiencies are long-standing and have been documented
                                        both by our office and by a 2002 CNMI Public Auditor’s report.
                                        Although CDA continues to operate at a reduced level of service, it
                                        cannot begin to correct loan deficiencies, build revenues, and meet
                                        its mandate to stimulate economic progress without immediate and
                                        decisive action.

                                            What is needed is a strong board of directors committed to
                                        creating both the accountability framework of sound loan practices
                                        and the financial recovery strategy necessary to protect CDA assets




                                                                                       Back To TOC
28   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                      Significant Audits, Evaluations, and Investigations




     and ensure the bank’s future financial viability. We made 7 recom-
     mendations that identified various best practices related to defining an
     effective board of directors and improving loan portfolio management,
     particularly in a depressed economy. In his response, the Governor
     concurred with our recommendations and submitted the CDA Strategic
     Development Plan, which incorporated the actions planned in response
     to our recommendations.

     Audit Recommendations Closed
     Due To Lack Of Action
         Due to lack of response, the OIG closed 59 recommendations
     made in 16 audit reports to the Insular Area Governments that do not
     involve DOI funds and issues. OIG policy requires closing out recom-
     mendations as unimplemented when the governments fail to provide
     information in a timely manner.

         In the case of the Government of the Virgin Islands, the OIG
     closed 56 of the 133 recommendations provided in 15 reports—
     some open for as long as 9 years—after unsuccessful attempts to
     obtain information. The OIG did obtain sufficient information on
     the remaining 77 recommendations.

         For the American Samoa Government, the OIG has been work-
     ing to resolve and close three recommendations from its September
     2005 report, Top Leadership Commitment Needed to Break the Cycle
     of Fiscal Crisis. Despite the OIG’s efforts during this past year, these
     three recommendations also remained open and unresolved. Lack of
     response caused the OIG to close these unimplemented audit recom-
     mendations and to notify OIA of these closures.




                                                                 Back To TOC


Semiannual Report to the Congress - October 1, 2006 - March 31, 2007            29
                      U.S. Fish And Wildlife Service




             Maslowski/
                  FWS

30   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                      Significant Audits, Evaluations, and Investigations




     Employee Pleads Guilty
     to Equipment Theft
         On March 5, Matthew Strock, a tractor operator at the National Fish
     Hatchery in Orangeburg, SC, pleaded guilty to a felony. He was sen-
     tenced to a 4-year jail term, subsequently suspended to 5 years of proba-
     tion, and ordered to repay $5,063.

          In September 2006, the OIG received notice of equipment theft at
     the fish hatchery. The hatchery supervisor discovered the missing equip-
     ment and filed a report, indicating that Matthew Strock had admitted
     to the theft. Strock, a 5-year employee, confessed to taking and pawn-
     ing several pieces of government equipment valued at approximately
     $23,400 between February and April 2006. Strock later gave the OIG a
     detailed list of stolen items and the locations where he had pawned
     them, as well as the amounts received for each. With the assistance
     of local authorities, the OIG recovered approximately $18,400 worth
     of stolen equipment.

     State Grant Audits Identify
     Questionable Costs and
     Unreported Program Income
         Audits of FWS grants awarded to ten states and the District of
     Columbia revealed a potential savings of $4,431,493. The grants are
     awarded under the Federal Assistance Program for State Wildlife and
     Sport Fish Restoration (Federal Assistance Program). The grants finance
     up to 75 percent of state-sponsored projects, such as developing sites for
     boating access, and acquiring and managing natural habitats.

       A summary of the significant issues disclosed in the audits follows.
     FWS is working with the states to resolve these matters.

     u	 Licensing: Eight of the audits identified licensing as a significant
        issue. Two deficiencies noted during the audits were: (1) the inabil-
        ity to provide documentation to demonstrate the hunting and fishing
        licenses revenues were used only for the administration of the state
        fish and wildlife agency, as required under federal regulation and (2)
        inaccurate license counts due to duplicate license holders and the
        failure to reduce the counts for those licenses that are no longer held
        by licensees.

     u	 Program Income: Six of the audits identified program income as a
        significant issue. Three of the states did not report some or all


                                                               Back To TOC


Semiannual Report to the Congress - October 1, 2006 - March 31, 2007              31
                                           program income from barter transactions on lands managed and
                                           maintained with Federal Assistance Program funds.

                                       u	 Personal property: Four of the audits identified personal property
                                          as a significant issue. Two of the states and the District of
                                          Columbia had inadequate controls over personal property.

                                       Employee Pleads Guilty To
                                       Conflict of Interest
                                           Susan Redman Bradberry, a former FWS employee, entered into a
                                       pre-trial diversion on a misdemeanor charge of conflict of interest in the
                                       Eastern District of Virginia. As part of the diversion, Bradberry agreed
                                       to pay $7,500 and was given 40 hours of community service.

                                           Bradberry admitted to negotiating employment with Federated Man-
                          Barnes/FWS   agement Partners, Inc. (FMP), a contractor, while employed by FWS.
                                       She further admitted to “working back” on the FPM contracts with FWS
                                       after having participated personally and substantially in those contracts
                                       while employed by FWS. Bradberry’s pre-trial diversion was based on
                                       e-mail documents from her government computer, witness interviews,
                                       and her own admissions.




                                                                                            Back To TOC




32   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                    Significant Audits, Evaluations, and Investigations




                                                             Barnes/FWS




Semiannual Report to the Congress - October 1, 2006 - March 31, 2007      33
                                       U.S. Geological Survey




34   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                       Significant Audits, Evaluations, and Investigations




     Employee Misuses Fleet
     and Purchase Cards
          Steven Ray Norton, a former USGS budget analyst, was
     sentenced on October 25, 2006, in U.S. District Court, District of
     Colorado. He was sentenced for felony embezzlement, theft, and
     conversion of DOI credit cards. Norton received 5 months of incar-
     ceration and 5 months of home detention with electronic monitoring.
     Following this, Norton is scheduled to serve 3 years of supervised
     release, pay the costs of his electronic monitoring, and make
     restitution of $38,395.52 to USGS.

          Norton used 4 USGS-issued Bank of America credit cards to
     make more than 350 illegal transactions and to receive cash and
     store credits on what appeared to be legitimate purchases.
     Norton attempted to hide his activity by manipulating and trans-
     ferring entries on USGS accounts entrusted to his oversight and
     control. He resigned from the agency after more than 22 years of
     federal service.

     USGS External Penetration Test
          In accordance with the OIG’s ongoing IT security evaluation
     program, the OIG performed an external penetration test of USGS
     IT infrastructure. The OIG’s goal was to assess the effectiveness
     of that agency’s Internet-facing IT infrastructure (equipment avail-
     able from the Internet), as well as incident detection and response
     capabilities. Since USGS does not use and, thus, is not protected
     by DOI’s Enterprise Services Network (ESN), it faces significant
     risk of undetected attacks. Several of these high-risk vulnerabilities
     enabled the OIG to penetrate nine servers during its test, suggesting
     that USGS IT infrastructure remains at significant risk. The OIG
     report recommended that USGS leverage the security capabilities
     offered by ESN and immediately implement the recommended
     information security controls.




                                                                Back To TOC


Semiannual Report to the Congress - October 1, 2006 - March 31, 2007          35
                                                                       Appendices




36   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                                                                                              Appendix One



    Summary of Audit and Related Activities
    From October 1, 2006, Through March 31, 2007


                         Audits and Related Activities Performed by:
	                                        OIG Staff	                OIG Single Audit Staff
	                        Audits/Verifications       Evaluations	   Quality Control Reviews	        Total

    Reports Issued To

    Department/Office
    of the Secretary	              8	                 0	                      2	                    10

    Fish and Wildlife
    and Parks	                    18	                 3	                      0	                    21

    Indian Affairs	                6	                 0	                      0	                     6

    Insular Affairs	               1	                 0	                      0	                     1

    Land and Minerals
    Management	                    8	                 0	                      0	                     8

    Water and Science	             5	                 0	                      0	                     5

    Total Reports
    Issued	                      46	                   3	                    2	                     51




                                                                                              Back To TOC


                                    Semiannual Report to the Congress - October 1, 2006 - March 31, 2007     37
 Appendix Two



     Reports Issued During the 6-Month
     Period That Ended March 31, 2007
     This listing includes all audit-related reports (performance audits, financial audits, evaluations, contract and
     grant audits, verification reviews, and single audit quality assurance reviews) issued during the 6-month period
     that ended March 31, 2007. It provides report number, title, issue date, and monetary amounts identified in
     each report (* Funds To Be Put To Better Use, ** Questioned Cost, *** Unsupported Cost, **** Lost or
     Potential Additional Revenues, and *****Wasted Funds).

     Performance Audits, Financial Audits, Evaluations,
     and Verification Reviews
     Bureau of Indian Affairs

     C-IN-BIA-0017-2005	               Bureau of Indian Affairs, Radio Communications Program (01/31/2007)
                                       *$540,000*****$3,900,706

     X-IN-BIA-0014-2006	               Independent Auditors’ Report on the Indian Affairs Financial Statements for
                                       Fiscal Years 2006 and 2005 (03/07/2007)

     C-RR-BIA-0010-2006	               Program Assessment Rating Tool - Review of Bureau of Indian Affairs Road
                                       Maintenance Program (03/19/2007)

     Y-RR-BIA-0004-2006	               Program Assessment Rating Tool - Review of Bureau of Indian Affairs Law
                                       Enforcement Program (03/19/2007)

     Bureau of Land Management

     X-IN-BLM-0022-2006	               Independent Auditors’ Report on the Bureau of Land Management Financial
                                       Statements for Fiscal Years 2006 and 2005 (02/12/2007)

     C-VS-BLM-0003-2007	               Verification of the Two Recommendations Contained in Our Audit Report,
                                       “Land Exchanges and Acquisitions, Bureau of Land Management, Utah State
                                       Office” (No. 2001-I-413) (02/22/2007)

     X-IN-BLM-0007-2007	               Management Letter Concerning Issues Identified During the Audit of the
                                       Bureau of Land Management’s Financial Statements for Fiscal Years 2006 and
                                       2005 (02/26/2007)

     C-VS-BLM-0001-2007	               Verification Review of the Two Recommendations From Our Audit Report,
                                       “Native American Graves Protection and Repatriation Activities, Bureau of
                                       Land Management” (No.00-I-377) (03/02/2007)

     Bureau of Reclamation

     X-IN-BOR-0023-2006	               Independent Auditors’ Report on the Bureau of Reclamation Financial State-
                                       ments for Fiscal Years 2006 and 2005 (02/12/2007)

      Wasted funds is a new funding category added during this reporting period.                Back To TOC


38   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                                                                                        Appendix Two


X-IN-BOR-0008-2007	   Management Issues Identified During the Audit of Bureau of Reclamation Fis-
                      cal Years 2006 and 2005 Financial Statements (03/27/2007)

C-VS-BOR-0002-2007	   Verification Review of the Three Recommendations from Our Audit Report,
                      “Identification of Unneeded Acquired Lands, Bureau of Reclamation”
                      (No. 99-I-133) (03/30/2007)

commonwealth of the northern mariana islands

P-IN-NMI-0002-2005	   Evaluation of the Commonwealth of the Northern Mariana Islands’ Com-
                      monwealth Development Authority: Strong Governance and Accountability
                      Framework Critical for Long-Term Viability (01/09/2007)

departmental offices

X-IN-OSS-0016-2006	   Independent Auditors’ Report on the Departmental Offices Financial State-
                      ments for Fiscal Years 2006 and 2005 (02/05/2007)

Multi-Office Audits

X-IN-MOA-0018-2006	   Independent Auditors’ Report on the Department of the Interior Financial
                      Statements for Fiscal Years 2006 and 2005 (11/15/2006)

X-IN-MOA-0001-2007	   Independent Auditors’ Report on the Department of the Interior Special Pur-
                      pose Financial Statements for Fiscal Years 2006 and 2005 (11/17/2006)

X-IN-MOA-0018-2005	   FY2005 Department of the Interior Purchases Made on Behalf of the Depart-
                      ment of Defense (01/09/2007)

C-IN-MOA-0007-2005	   U.S. Department of the Interior Radio Communications Program
                      (01/30/2007) *$10,500,000*****$24,956,000

W-IN-MOA-0086-2004	   Proper Use of Cooperative Agreements Could Improve Interior’s Initiatives
                      for Collaborative Partnerships (01/31/2007)

C-IN-MOA-0004-2006	   DOI’s 2005 Hurricane Relief Expenditures (03/22/2007)

minerals management service

C-IN-MMS-0006-2006	   Minerals Management Service’s Compliance Review Process (12/05/2006)

X-IN-MMS-0019-2006	   Independent Auditors’ Report on the Minerals Management Service Financial
                      Statements for Fiscal Years 2006 and 2005 (02/05/2007)

X-IN-MMS-0010-2007	   Management Letter Concerning Issues Identified During the Audit of the Min-
                      erals Management Service’s Financial Statements for Fiscal Years 2006 and
                      2005 (02/16/2007)

National Park Service

B-EV-NPS-0011-2006	   DC Water and Sewer Payments Fourth Quarter (11/20/2006)         Back To TOC


                      Semiannual Report to the Congress - October 1, 2006 - March 31, 2007          39
 Appendix Two



     P-VS-NPS-0002-2006	        Verification Review of Four Recommendations From Our December 2003
                                Audit Report Concession Management and Fee Collection Operations, St.
                                Croix National Park, National Park Service (No. V-IN-NPS-0004-2003-A)
                                (12/01/2006)

     X-IN-NPS-0017-2006	        Independent Auditors’ Report on the National Park Service Financial State-
                                ments for Fiscal Years 2006 and 2005 (02/08/2007)

     B-EV-NPS-0003-2007 	       DC Water and Sewer Payments First Quarter (02/15/2007)

     X-IN-NPS-0005-2007	        Management Issues Identified During the Audit of National Park Service Fis-
                                cal Years 2006 and 2005 Financial Statements (03/01/2007)

     W-VS-NPS-0002-2007	        Verification Review of Recommendations From Our March 2003 Advisory
                                Report, Yosemite National Park’s Museum Operations, National Park Service
                                (No. 2003-I-0013) (03/20/2007)

     W-EV-NPS-0013-2006	        Evaluation of Partnership Construction Process, National Park Service
                                (03/22/2007)

     Office of Special Trustee

     Q-IN-OST-0001-2006	        Independent Auditors’ Report on the Tribal and Other Trust Funds and Indi-
                                vidual Indian Monies Trust Funds Financial Statements for Fiscal Years 2006
                                and 2005 Managed by the Office of the Special Trustee for American Indians
                                (12/14/2006)

     Q-IN-OST-0002-2007	        Management Letter Concerning Issues Identified During the Audit of the
                                Office of the Special Trustee for American Indians Financial Statements for
                                Fiscal Years 2006 and 2005 (12/14/2006)

     Office of Surface Mining reclamation and enforcement

     X-IN-OSM-0021-2006	        Independent Auditors’ Report on the Office of Surface Mining Balance Sheets
                                for Fiscal Years 2006 and 2005 (01/22/2007)

     X-IN-OSM-0011-2007	        Management Letter Concerning Issues Identified During the Audit of the
                                Office of Surface Mining Balance Sheets for Fiscal Years 2006 and 2005
                                (02/12/2007)

     u.s. fish and wildlife service

     Y-RR-FWS-0003-2006	        Program Assessment Rating Tool - Review of U.S. Fish and Wildlife Service
                                National Wildlife Refuge System Program (03/19/2007)

     u.s. geological survey

     X-IN-GSV-0015-2006	        Independent Auditors’ Report on the U.S. Geological Survey Financial State-
                                ments for Fiscal Years 2006 and 2005 (01/19/2007)

                                                                                         Back To TOC

40   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                                                                                          Appendix Two



X-IN-GSV-0002-2007	      Management Letter Concerning Issues Identified During the Audit of the
                         U.S. Geological Survey Financial Statements for Fiscal Years 2006 and 2005
                         (03/29/2007)

Contract and Grant Audits
National Park Service

W-CX-NPS-0003-2006	      Agreed-Upon Procedures Review of National Park Service Contract with the
                         University of California at Davis (No. C2350040050) (03/20/2007) **$486
                         ***$596,245

W-CX-NPS-0010-2006	      Agreed-Upon Procedures Review of National Park Service Contract with Air
                         Resources Specialists, Inc. (No. C2350010850) (03/20/2007)

U.S. Fish and Wildlife Service

R-GR-FWS-0027-2005	      U.S. Fish and Wildlife Service, Federal Assistance Grants Administered by
                         the State of Delaware, Department of Natural Resources and Environmental
                         Control, Division of Fish and Wildlife, From July 1, 2003, Through June 30,
                         2005 (10/16/2006)

R-GR-FWS-0019-2005 	     U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                         State of Oklahoma, Department of Wildlife Conservation, From July 1, 2003,
                         Through June 30, 2005 (10/23/2006) *$1,736 **$19,275

R-GR-FWS-0020-2005	      U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                         District of Columbia, Department of Health, From October 1, 2002, Through
                         September 30, 2004 (11/15/2006) **$49,392 ***$1,290,047

R-GR-FWS-0006-2006	      U.S. Fish and Wildlife Service Federal Assistance Grants Issued to the State of
                         North Dakota, Game and Fish Department, From July 1, 2003, Through June
                         30, 2005 (01/04/2007)

R-GR-FWS-0002-2006	      U.S. Fish and Wildlife Service Federal Assistance Grants Awarded to the State
                         of Georgia, Department of Natural Resources, From July 1, 2003, Through
                         June 30, 2005 (01/11/2007) ***$42,920

R-GR-FWS-0003-2006	      U.S. Fish and Wildlife Service Federal Assistance Grants Awarded to the State
                         of Hawaii, Department of Land and Natural Resources, From July 1, 2003,
                         Through June 30, 2005 (01/16/2007) **$9,571

R-GR-FWS-0014-2005	      U.S. Fish and Wildlife Service Federal Assistance Grants Awarded to the State
                         of Texas Parks and Wildlife Department, From September 1, 2002, Through
                         August 31, 2004 (01/30/2007) *$1,274,000 **$2,536,399

R-GR-FWS-0018-2005	      U.S. Fish and Wildlife Service Federal Assistance Grants Awarded to the State
                         of Minnesota, Department of Natural Resources, Division of Fish and Wild-
                         life, From July 1, 2002, Through June 30, 2004 (02/01/2007) *$505,600
                                                                                          Back To TOC

                       Semiannual Report to the Congress - October 1, 2006 - March 31, 2007                41
 Appendix Two



     R-GR-FWS-0025-2005	         U.S. Fish and Wildlife Service, Federal Assistance Grants Awarded to the State
                                 of Maryland, Department of Natural Resources, From July 1, 2003, Through
                                 June 30, 2005 (02/08/2007) *$73,143 **$13,695 ***$24,123

     R-GR-FWS-0004-2006	         U.S. Fish and Wildlife Service Federal Assistance Program Grants Awarded
                                 to the State of Missouri, Department of Conservation, From July 1, 2003,
                                 Through June 30, 2005 (02/23/2007) *$94,793 **$482,471

     R-GR-FWS-0012-2005	         U.S. Fish and Wildlife Service Federal Assistance Program Grants Awarded to
                                 the State of South Carolina, Department of Natural Resources, From July 1,
                                 2003, Through September 30, 2005 (03/22/2007)

     Single Audit Quality Control Reviews
     B-QC-MOA-0002-2007	         The Delaware Nation for the Fiscal Year Ended September 30, 2005
                                 (03/05/2007)

     B-QC-MOA-0005-2007	         The National Park Foundation Fiscal Year Ended June 30, 2005 (03/16/2007)




                                                                                       Back To TOC


42   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                                                                                        Appendix Three




Monetary Impact of Audit and Evaluation Activities
From October 1, 2006, Through March 31, 2007


	      Activity	       Questioned Costs*	 Funds To Be Put To Better Use	      Wasted Funds**	      Total

Bureau of
Indian Affairs	                  0	                          $540,000	         $3,900,706	       $4,440,706
U.S. Fish and
Wildlife Service	           $4,467,893	                     $1,949,272	            0	            $6,417,165
Multi-Office	                    0	                        $10,500,000	       $24,956,000	      $35,456,000
National Park
Service	                     $596,731	                          0	                 0	            $596,731
Total	                     $5,064,624	                     $12,989,272	       $28,856,706	      $46,910,602


    *Unsupported costs are included in questioned costs.
**Wasted Funds is a new funding category added during the reporting period.




                                                                                        Back To TOC


                            Semiannual Report to the Congress - October 1, 2006 - March 31, 2007           43
 Appendix Four



     Audit and Evaluation Resolution Activities
     Table I: Inspector General Reports With Questioned Costs*


     		                                             Number of Reports	   Questioned Costs	   Unsupported Costs


     A.	   For which no management
     	     decision had been made by the
     	     commencement of the reporting
     	     period.	                                         31	            $12,733,589	         $3,986,337

     B.	 Which were issued during the
     	 reporting period.	                                    8	             $5,064,624	         $1,953,335

     	     	   Total (A+B)	                                 39	            $17,798,213	         $5,939,672

     C.	 For which a management decision
     	 was made during the reporting
     	 period. 	                                             8	             $4,792,503	           $187,620

     		        (i) Dollar value of
     		        recommendations that
     		        were agreed to by
     		        management. 	                                 7	             $4,688,926	            $90,408

     		        (ii) Dollar value of
     		        recommendations that
     		        were not agreed to by
     		        management. 	                                 1	               $103,577	            $97,212

     D.	 For which no management
     	 decision had been made by the
     	 end of the reporting period. 	                       31	            $13,005,710	         $5,752,052

     E. 	 For which no management
     	 decision was made within
     	 6 months of issuance. 	                              22	             $7,961,370	         $3,798,717




     *Unsupported costs are included in questioned costs.

                                                                                              Back To TOC


44   Semiannual Report to the Congress - April
                                         October
                                               1, 2006
                                                   1, 2006
                                                        - September
                                                            - March 31,
                                                                     30,2007
                                                                         2006
                                                                                                                Appendix
                                                                                                           Appendix Four Four



Audit and Evaluation Resolution Activities
Table II: Inspector General Reports With
Recommendations That Funds Be Put To Better Use

		                                                   Number of Reports	                              Dollar Value


A.	   For which no management
	     decision had been made by the
	     commencement of the reporting
	     period.*	                                                 15	                                 $16,715,330

B.	 Which were issued during the
	 reporting period. 	                                             7	                                $12,989,272

	     	   Total (A+B)	                                          22	                                 $29,704,602

C.	 For which a management decision
	 was made during the reporting period. 	                         3	                                    $118,188

	 (i)	 Dollar value of recommendations
		 that were agreed to by management. 	                           3	                                    $118,188

	 (ii)	 Dollar value of recommendations
		 that were not agreed to by management. 	                       0	                                              0

D.	 For which no management decision
	 had been made by the end of the
	 reporting period. 	                                           19	                                 $29,586,414

E.	 For which no management decision
	 was made within 6 months of issuance. 	                       11	                                 $16,202,173




*Beginning balance differs by $85,852 from the October 2006 Semiannual Report ended balance due to corrective adjustments.



                                                                                                                  Back To TOC

                                     Semiannual Report to the Congress - October 1, 2006 - March 31, 2007                       45
 Appendix Four



     Audit and Evaluation Resolution Activities
     Table III: Inspector General Reports
     With Lost or Potential Additional Revenues

     		                                          Number of Reports	         Dollar Value


     A.	   For which no management
     	     decision had been made by
     	     the commencement of the
     	     reporting period.	                             4	                $92,410,640

     B.	 Which were issued during the
     	 reporting period. 	                                0	                          0

     	     	   Total (A+B)	                               4	                $92,410,640

     C.	 For which a management decision
     	 was made during the reporting period. 	            0	                          0

     	 (i)	 Dollar value of recommendations
     		 that were agreed to by management. 	              0	                          0

     	 (ii)	 Dollar value of recommendations
     		 that were not agreed to by management. 	          0	                          0

     D.	 For which no management decision
     	 had been made by the end of the
     	 reporting period. 	                                4	                $92,410,640

     E.	 For which no management decision
     	 was made within 6 months of issuance. 	            4	                $92,410,640




                                                                             Back To TOC


46   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                                                                                                                     Appendix
                                                                                                                     AppendixFour
                                                                                                                              Four



Audit and Evaluation Resolution Activities
Table IV: Inspector General Reports
With Wasted Funds*

		                                                    Number of Reports	                                  Dollar Value


A.	   For which no management
	     decision had been made by
	     the commencement of the
	     reporting period.	                                          0	                                                 0

B.	 Which were issued during the
	 reporting period. 	                                             2	                                  $28,856,706

	     	   Total (A+B)	                                            2	                                  $28,856,706

C.	 For which a management decision
	 was made during the reporting period. 	                         0	                                                 0

	 (i)	 Dollar value of recommendations
		 that were agreed to by management. 	                           0	                                                 0

	 (ii)	 Dollar value of recommendations
		 that were not agreed to by management. 	                       0	                                                 0

D.	 For which no management decision
	 had been made by the end of the
	 reporting period. 	                                             2	                                  $28,856,706

E.	 For which no management decision
	 was made within 6 months of issuance. 	                         0	                                                 0




* Wasted Funds is a new category the OIG will be using to classify funds that were wasted and cannot be recovered.


                                                                                                                 Back To TOC


                                     Semiannual Report to the Congress - October 1, 2006 - March 31, 2007                        47
 Appendix Five



     Summary of Audit and Evaluation Reports Over 6
     Months Old Pending Management Decisions at
     March 31, 2007
     This listing includes a summary of audit [performance, financial, contract (except pre-awards), and grant],
     and evaluation reports that were more than 6 months old on March 31, 2007, and still pending a management
     decision. It provides report number, title, issue date, number of unresolved recommendations, and unresolved
     amount of monetary benefits identified in the report.

     Performance Audits, Financial
     Audits, and Evaluations
     Bureau of Indian Affairs

     W-FL-BIA-0047-2002	             School Construction Program, Bureau of Indian Affairs (02/24/2004);
                                     1 Recommendation; $2,100,000 Unresolved

     C-IN-BIA-0015-2004	             Bureau of Indian Affairs Use of Facilities Improvement and Repair Funds
                                     (08/29/2005); 1 Recommendation; $10,200,000 Unresolved

     Multi-Office Audits

     A-EV-MOA-0006-2004	             Annual Evaluation of the Information Security Program of the Department of
                                     the Interior (10/06/2004); 2 Recommendations

     A-IN-MOA-0004-2004	             Department of the Interior’s Use of Wireless Technologies (12/06/2004);
                                     6 Recommendations

     E-IN-MOA-0008-2004	             Department of the Interior Workers’ Compensation Program (05/09/2005);
                                     2 Recommendations

     A-EV-MOA-0001-2005	             Department of the Interior’s Process to Manage Information Technology
                                     Security Weaknesses (09/23/2005); 3 Recommendations

     X-IN-MOA-0009-2006	             Management Letter Concerning Issues Identified During the Audit of the
                                     Department of the Interior’s Financial Statements for Fiscal Years 2005 and
                                     2004 (02/28/2006); 2 Recommendations

     C-EV-MOA-0003-2006	             Department of the Interior’s Information Technology Systems Inventory
                                     (08/30/2006); 4 Recommendations

     Contract and Grants
     National Park Service

     2000-E-0607	                    Costs Billed By Harrison & Palmer, Inc., From April 1, 1996, Through June
                                     23, 1999, Under National Park Service Contract No. 143CX300094906
                                     (08/08/2000); 1 Recommendation; $52,703 Unresolved           Back To TOC

48    Semiannual Report to the Congress -October 1, 2006 - March 31, 2007
                                                                                        Appendix Five



2000-E-0706	          Audit of Costs Billed by Southern Insulation, Inc., From November 21,
                      1994, Through June 1, 1999, Under National Park Service Contract No.
                      1443CX300094906 (09/29/2000); 1 Recommendation; $86,262 Unresolved

2001-E-0035	          Audit of Costs Billed by Callas Contractors, Inc., From January 1,
                      1997, Through June 1, 1999, Under National Park Service Contract No.
                      1443CX300094906 (11/07/2000); 1 Recommendation; $16,425 Unresolved

2001-E-0036	          Audit of Costs Billed by Capitol Mechanical Contractors, Inc., From
                      January 1, 1997, Through June 1, 1999, Under National Park Service
                      Contract No. 1443CX300094906 (11/07/2000); 1 Recommendation;
                      $98,194 Unresolved

2001-E-0244	          Audit of Costs Billed by E.M.S. Consultants, Inc., From May 1,
                      1996, Through June 1, 1999, Under National Park Service Contract
                      No.1443CX300094906 (02/27/2001); 1 Recommendation;
                      $327,330 Unresolved

2001-E-0336	          Audit of Costs Billed By JCM Control Systems, Inc., From January 1,
                      1994, Through July 16, 1999, Under National Park Service Contract No.
                      1443CX300094906 (04/23/2001); 1 Recommendation; $109,865 Unresolved

U.S. Fish and Wildlife Service

R-GR-FWS-0029-2003	   U.S. Fish and Wildlife Service Federal Assistance Grants Administered by
                      the State of Washington, Department of Fish and Wildlife, From July 1, 2000,
                      Through June 30, 2002 (03/21/2004); 1 Recommendation

R-GR-FWS-0025-2003	   U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                      State of New York, Department of Environmental Conservation, Division of
                      Fish, Wildlife, and Marine Resources, From April 1, 2000, Through March 31,
                      2002 (05/06/2004); 5 Recommendations; $980,616 Unresolved

R-GR-FWS-0014-2004	   U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                      Commonwealth of Puerto Rico, Department of Natural and Environmental
                      Resources, From July 1, 2001, Through June 30, 2003 (09/19/2005);
                      9 Recommendations

R-GR-FWS-0008-2004	   U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                      State of Idaho, Department of Fish and Game, From July 1, 2001, Through
                      June 30, 2003 (09/30/2005); 15 Recommendations; $519,469 Unresolved

R-GR-FWS-0004-2005	   U.S. Fish and Wildlife Service Federal Assistance Grants Administered by
                      the State of Illinois, Department of Natural Resources, From July 1, 2002,
                      Through June 30, 2004 (03/31/2006); 12 Recommendations;
                      $553,977 Unresolved



                                                                                     Back To TOC


                      Semiannual Report to the Congress - October 1, 2006 - March 31, 2007           49
 Appendix Six



     Summary of Performance Audit, Financial Audit, and
     Evaluation Reports More Than 6 Months Old
     Pending Corrective Action at March 31, 2007
     This is a listing of performance audits, financial audits, and evaluation reports more than 6 months
     old with management decisions for which corrective action has not been completed. It provides
     report number, title, issue date, and the number of recommendations without final corrective action.
     These audits and evaluations continue to be monitored by the Focus Leader for Management Control
     and Audit Follow-up, Assistant Secretary—Policy, Management, and Budget, for completion of
     corrective action.

     Bureau of Indian Affairs

     2003-I-0055	                 Evaluation of the Bureau of Indian Affairs’ Process to Approve Tribal Gaming
                                  Revenue Allocation Plans (06/11/2003); 3 Recommendations

     C-IN-BIA-0015-2004	          Bureau of Indian Affairs Use of Facilities Improvement and Repair Funds	
                                  (08/29/2005); 2 Recommendations

     E-EV-BIA-0063-2003	          Process Used to Assess Applications to Take Land Into Trust for Gaming
                                  Purposes (09/01/2005); 2 Recommendations

     X-IN-BIA-0006-2005	          Independent Auditors’ Report on the Bureau of Indian Affairs’ Financial
                                  Statements for Fiscal Years 2005 and 2004 (12/20/2005); 4 Recommendations

     X-IN-BIA-0010-2006	          Management Letter Concerning Issues Identified During the Audit of the
                                  Bureau of Indian Affairs’ Fiscal Years 2005 and 2004 Financial Statements
                                  (03/03/2006); 3 Recommendations

     Bureau of Land Management

     1999-I-0808	                 Cultural Resource Management, Bureau of Land Management (09/03/1999);
                                  2 Recommendations

     W-IN-BLM-0009-2003	          Audit of Oil and Gas Permitting Process, Bureau of Land Management
                                  (02/13/2004); 2 Recommendations

     C-IN-BLM-0013-2005	          Public Safety Issues at the Saginaw Hill Property Bureau of Land
                                  Management (03/15/2005); 1 Recommendation

     bureau of reclamation

     2002-I-0052	                 Review of Central Valley Project Responsibilities Transferred Under Direct
                                  Funding Agreements Between BOR and Three California Water Authorities
                                  (09/30/2002); 1 Recommendation



                                                                                         Back To TOC


50   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                                                                                          Appendix Six


Minerals Management Service

X-IN-MMS-0010-2005	   Independent Auditors’ Report on the Minerals Management Service’s
                      Financial Statements for Fiscal Years 2005 and 2004 (12/08/2005);
                      1 Recommendation	

Multi-Office Audits

1996-I-1267	          Inspection and Enforcement Program and Selected Activities, Bureau of Land
                      Management (09/30/1996); 3 Recommendations

C-IN-MOA-0042-2003	   Fleet Management Operations, U.S. Department of the Interior (02/09/2004);
                      5 Recommendations

X-IN-MOA-0027-2004	   Trust Funds Management, U.S. Department of the Interior (09/10/2004);
                      1 Recommendation

C-EV-MOA-0094-2003	   Department of the Interior Contracting for Temporary and Critical Staffing
                      Needs (09/30/2004); 5 Recommendations

E-IN-MOA-0008-2004	   Department of the Interior Workers’ Compensation Program (05/09/2005);
                      2 Recommendations

C-IN-MOA-0049-2004	   Department of the Interior Concessions Management (06/13/2005);
                      5 Recommendations

C-IN-MOA-0040-2004	   U.S. Department of the Interior Hazardous Materials Site Management
                      (08/22/2005); 7 Recommendations

X-IN-MOA-0011-2005	   Independent Auditors’ Report on the Department of the Interior’s Annual
                      Report on Performance and Accountability for Fiscal Year 2005 (11/15/2005);
                      16 Recommendations

X-IN-MOA-0009-2006	   Management Letter Concerning Issues Identified During the Audit of the De-
                      partment of the Interior’s Financial Statements for Fiscal Years 2005 and 2004
                      (02/28/2006); 2 Recommendations

C-IN-MOA-0006-2005	   Modified Water Deliveries to Everglades National Park (03/31/2006);
                      5 Recommendations

W-IN-MOA-0002-2005	   Hazardous Fuels Reduction Program, U.S. Department of the Interior
                      (04/17/2006); 5 Recommendations

E-EV-MOA-0017-2005	   Department of the Interior’s Gross Estimated Savings for FY 2004
                      Competitive Sourcing (06/23/2006); 4 Recommendations
National Park Service
2002-I-0045	          Recreational Fee Demonstration Program - National Park Service and Bureau
                      of Land Management (08/19/2002); 2 Recommendations

                                                                                    Back To TOC


                      Semiannual Report to the Congress - October 1, 2006 - March 31, 2007             51
      Appendix Six


     2003-I-0013	               Yosemite National Park’s Museum Collection, National Park Service
                                (03/31/2003); 1 Recommendation

     A-IN-NPS-0074-2003	        Improvements Needed in Managing Information Technology System Security,
                                National Park Service (03/29/2004); 5 Recommendations

     X-IN-NPS-0009-2005	        Independent Auditors’ Report on the National Park Service’s Financial State-
                                ments for Fiscal Years 2005 and 2004 (12/21/2005); 2 Recommendations

     X-IN-NPS-0008-2006	        Management Letter Concerning Issues Identified During the Audit of the
                                National Park Service’s Financial Statements for Fiscal Years 2005 and 2004
                                (01/31/2006); 1 Recommendation

     P-IN-NPS-0074-2004	        Hawaii Volcanoes National Park: Improved Operations Should Enhance
                                Stewardship and Visitor Experience (03/31/2006); 10 Recommendations

     W-IN-NPS-0006-2005	        Administration of the Chesapeake Bay Gateways Network and Grant Program,
                                National Park Service (07/28/2006); 2 Recommendations

     Office of the Secretary

     2003-I-0056	               Evaluation Report on the Department of the Interior Working Capital Fund
                                (06/16/2003); 2 Recommendations

     E-IN-DMO-0058-2004	        Independent Auditors’ Report on the Departmental Offices’ Financial
                                Statements for Fiscal Years 2004 and 2003 (12/06/2004); 1 Recommendation

     E-IN-OSS-0008-2005	        Management Issues Identified During the Audit of Departmental
                                Offices’ Fiscal Years 2004 and 2003 Financial Statements (02/24/2005);
                                6 Recommendations

     Office of the Special Trustees for American Indians

     1997-I-1169	               Judgment Funds Awarded to the Papago Tribe of Arizona (09/15/1997);
                                1 Recommendation

     Q-IN-OST-0002-2005	        Independent Auditors’ Report on the Tribal and Other Trust Funds and
                                Individual Indian Monies Trust Funds Financial Statements for Fiscal Years
                                2005 and 2004 Managed by the Office of the Special Trustee for American
                                Indians (11/22/2005); 2 Recommendations

     U.S. Fish and Wildlife Service

     1997-I-1305	               Audit Report on the Automated Law Enforcement System, U.S. Fish and
                                Wildlife Service (09/30/1997); 1 Recommendation

     X-IN-FWS-0003-2006	        Management Letter Concerning Issues Identified During the Audit of the Fish
                                and Wildlife Service’s Financial Statements for Fiscal Years 2005 and 2004
                                (02/27/2006); 2 Recommendations
                                                                                          Back To TOC



52   Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                                                                                         Appendix Seven



Reports Issued on Information Security
ISD-EV-NBC-0001-2007	   External Penetration Test of the U.S. Geological Service (12/2006)

ISD-EV-NBC-0012-2007	   Notice of Finding and Recommendations to the National Business Center
                        (03/13/2007)




                                                                                      Back To TOC


                        Semiannual Report to the Congress - October 1, 2006 - March 31, 2007        53
General Information



      Cross-references to the Inspector General Act
                                                                                                               Page
      Section 4(a)(2)           Review of Legislation and Regulations                                          N/A*

      Section 5(a)(1)           Significant Problems, Abuses, and Deficiencies                                  1-35

      Section 5(a)(2)           Recommendations for Corrective Action With Respect to Significant
                                Problems, Abuses, and Deficiencies                                              1-35

      Section 5(a)(3)           Significant Recommendations From Agency’s Previous Reports on                  50-52
                                Which Corrective Action Has Not Been Completed

      Section 5(a)(4)           Matters Referred to Prosecutive Authorities and Resulting Convictions             ii

      Section 5(a)(5)           Matters Reported to the Head of the Agency                                      N/A

      Section 5(a)(6)           Audit Reports Issued During the Reporting Period                               38-42

      Section 5(a)(7)           Summary of Significant Reports                                                  1-35

      Section 5(a)(8)           Statistical Table – Questioned Costs                                             44

      Section 5(a)(9)           Statistical Table – Recommendations That Funds Be Put to Better Use              45

      Section 5(a)(10)          Summary of Audit Reports Issued Before the Commencement of the
                                Reporting Period for Which No Management Decision Has Been Made                48-49

      Section 5(a)(11)          Significant Revised Management Decisions Made During the
                                                                                                                 NA
                                Reporting Period

      Section 5(a)(12)          Significant Management Decisions With Which the Inspector General
                                                                                                                 NA
                                Is in Disagreement

      Section 5(a)(13)          Information Described Under Section 804(b) of the Federal Financial              53
                                Management Improvement Act of 1996




      *N/A: Not applicable to this reporting period




                                                                                                 Back To TOC


54    Semiannual Report to the Congress - October 1, 2006 - March 31, 2007
                                                                     General Information




                                          By Mail
                                 U.S. Department of the Interior
                                  Office of Inspector General
                                        1849 C St. NW
                                      Mail Stop 5341, MIB
                                    Washington, DC 20240




                                                          By Internet
                                                            www.doioig.gov




                                                               By Phone
                                                                   202.208.4618



By Fax
202.208.4998




                                                                        Back To TOC


               Semiannual Report to the Congress - October 1, 2006 - March 31, 2007    55
